   June 5, 2002




Information
System Security
Army Web Site Administration,
Policies, and Practices
(D-2002-098)




              Department of Defense
          Office of the Inspector General

Quality              Integrity        Accountability
  Copies

  To obtain additional copies of this audit report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronym

GILS                  Government Information Locator Service
          Office of the Inspector General of the Department of Defense
Report No. D-2002-098                                                         June 5, 2002
   (Project No. D2001AB-0116.001)

           Army Web Site Administration, Policies, and Practices

                                    Executive Summary

Who Should Read This Report and Why? Web site developers and administrators,
operational security officers, public affairs officers, managers responsible for Web site
content, and Web site users should read the reports in this series. Those involved with
administering or overseeing Web sites will want to make sure that their content is
appropriate.

Background. This report is the second in a series that addresses DoD Internet
administration, policies, and practices. The first report addressed the Web site
administration, policies, and practices of the Air Force. A subsequent report will cover
Web site administration within the DoD. The Naval Audit Service issued a separate
audit report on Web site administration within the Navy and the Marine Corps. The
“DoD Web site Administration Policy and Procedures,” (the Policy) November 25, 1998,
and updated April 26, 2001, describes procedures for establishing, operating, and
maintaining DoD unclassified Web sites. The Policy requires heads of DoD Components
to establish a process to identify appropriate information for posting to Web sites and to
review all information placed on publicly accessible Web sites for security levels of
sensitivity before the information is released. The Policy requires Components to
establish procedures for management oversight and review of Web sites and to provide
necessary resources to support Web site operations. The Policy also requires an annual
security assessment of Web sites.

Results. The Army’s publicly accessible Web sites contained inappropriate information,
which was in contravention of Army Web Policy. As a result, potentially sensitive
matters and information were not adequately protected. The Army needs to revise its
policy for documenting and reporting review results, establish a system to resolve
discrepancies, reconcile and verify its Web site inventory, establish a way to monitor the
consistency of the Army Web site review and approval process, establish an Army Web
Risk Assessment Cell, establish annual operational security reviews of Web sites, and
establish a training requirement and curriculum for Army Web administration personnel.

Management Comments. The Army concurred with the recommendations. Its actions
to establish the Army worldwide Intranet, consolidate Army National Guard and Army
Reserve servers, update its Web site administration policy, and determine the training
requirement for Web site administration personnel meet the intent of the
recommendations; therefore, no further comments are required.
Table of Contents

Executive Summary                                             i


Introduction
     Background                                              1
     Objectives                                              2

Finding
     Army Internet Administration, Policies, and Practices   4

Appendixes
     A. Audit Process
         Scope and Methodology                               14
         Management Control Program Review                   14
         Prior Audit Coverage                                15
     B. Report Distribution                                  16

Management Comments
     Department of the Army                                  17
Background
    DoD Web Page Policy. The “DoD Web site Administration Policy and
    Procedures,” (the Policy) December 7, 1998, and updated April 26, 2001,
    describes procedures for establishing, operating, and maintaining DoD
    unclassified Web sites. The Policy requires heads of DoD Components to
    establish a process to identify appropriate information for posting to Web sites
    and to review all information placed on publicly accessible Web sites for security
    levels of sensitivity before the information is released.

    In addition, the Policy requires Components to establish procedures for
    management oversight and review of Web sites and to provide necessary
    resources to support Web site operations, including funding, staffing, and
    training. The Policy also requires an annual security assessment of Web sites to
    ensure that information that could have a negative effect on U.S. military
    operations or personnel is not available on publicly accessible Web sites.

    Moreover, Components must register each publicly accessible Web site with the
    Government Information Locator Service (GILS). The GILS helps citizens
    identify, locate, and retrieve information about the Government. The GILS
    resides on the Defense Link, which is the official Web site for DoD and the
    starting point for finding military information online for defense policy,
    organizations, functions, and operations.

    The Policy defines a Web site as a collection of information that is organized into
    a number of Web documents. The information is related to a common subject or
    set of subjects and is linked to subordinate information that is included on a Web
    page. A Home Page is the index or introductory document for a Web site. An
    official DoD Web site is developed and maintained with command sponsorship,
    approval, and editorial supervision over content.

    DoD Oversight of Web Content. On February 25, 1999, the Secretary of
    Defense approved the Joint Web Risk Assessment Cell plan to use Reserve assets
    to conduct ongoing security and threat assessments of Components’ publicly
    accessible Web sites. The Joint Web Risk Assessment Cell is responsible for
    analyzing data on DoD Web sites for information that poses potential or real
    threats to ongoing operations and DoD personnel. Inappropriate data include For
    Official Use Only, sensitive and classified information, and other information at
    one or more sites that, when combined, would be sensitive or classified and
    should not be released to the general public.

    Army Policy on Web Sites. The Director of Information Systems for Command,
    Control, Communications, and Computers serves as the Chief Information Officer
    of the Army. Army Regulation 25-1, “Army Information Management,”
    February 15, 2000, states that Army organizations will assign a Web master who
    will have technical control over updating each Web site’s content and approving
    information for public release. Prohibited information, which includes
    information that is classified, For Official Use Only, protected under the Privacy
    Act, exempted under the Freedom of Information Act, and draft policy


                                         1
    publications must not be made available to the general public. In addition,
    Regulation 25-1 requires Army organizations that maintain Web sites to register
    with the Army Home Page. The Army Home Page is used by Army organizations
    and personnel to share information with Web users. Registration requires the
    submission of official record information such as Web site title, Internet address,
    major command, base location, point of contact, and other pertinent Web site
    data. Regulation 25-1 also states that the Training and Doctrine Command will
    formulate information management and information technology doctrine for the
    Army, and in coordination with the Director of Information Systems for
    Command, Control, Communications and Computers identify and analyze
    information management training requirements, and update existing courseware.

    The Office of the Director of Information Systems for Command, Control,
    Communications, and Computers provided detailed guidance on Web site
    administration in “Guidance for Management of Publicly Accessible U.S. Army
    Web Sites,” November 30, 1998, which defines the responsibilities of Army
    personnel in the establishment, and operation of Army Web sites. The guidance
    provides that officials who operate Army Web sites must control the Web sites’
    contents so that they comply with policies, and must periodically reevaluate each
    Web site under their control. Officials must ensure information posted on Web
    sites is accurate, timely, represents the official Army position and is properly
    cleared for public release. Additional prohibited information includes
    copyrighted trademarks, logos, and links to inappropriate commercial Web sites.
    Moreover, Army organizations that maintain Web sites must register with GILS
    and also notify the Army Web site when changes occur to the registration
    information.

    Army Regulation on Public Affairs. Army Regulation 360-1, “The Army
    Public Affairs Program,” September 15, 2000, states that public affair offices and
    security offices must review and approve DoD official information for public
    release.
    Army Regulation on Operations Security. Army Regulation 530-1 “Operations
    Security,” March 3, 1995, prescribes policy and procedures for operational
    security. Operations security is a process to protect and prevent the disclosure of
    any information that may jeopardize U.S. Forces performing their mission.
    Regulation 530-1 requires each Army organization to develop an Operations
    Security Program to protect critical information. The program should include a
    process to identify critical information, analyze threats and vulnerabilities, and
    assess risks and countermeasures. In addition, each year, major commands must
    submit a report on their programs to the Deputy Chief of Staff for Operations and
    Plans, who is the Army proponent for operations security.


Objectives
    Our objective was to evaluate Army policies and practices for Web site
    administration and oversight. Specifically, we reviewed how the Army hosts
    official Web sites, how the Army registers and monitors Web sites for compliance


                                         2
with policy, and how the Army safeguards sensitive information. We also
evaluated the management control program as it related to the overall objective.
See Appendix A for a discussion of the audit scope and methodology, the
management control program, and prior audit coverage.




                                    3
           Army Internet Administration, Policies,
           and Practices
           The Army had publicly accessible Web sites that contained inappropriate
           information, which was in contravention of Army Web Policy. This
           condition occurred because:

           •   Army organizations did not employ consistent approval processes for
               reviewing information displayed on publicly accessible Web sites, and
               did not conduct periodic policy compliance and annual security
               reviews of publicly accessible Web sites;

           •   the Director of Information Systems for Command, Control,
               Communications and Computers did not coordinate with the Training
               and Doctrine Command to identify and implement training and
               curriculum requirements for Web administration personnel; and

           •   the Director of Information Systems for Command, Control,
               Communications and Computers did not provide oversight and was
               not aware of all publicly accessible Army Web sites.

           As a result, potentially sensitive matters and information were not
           adequately protected.


Information on Army Public Web Sites
    Joint Web Risk Assessment Cell Review of Army Web Sites. The Joint Web
    Risk Assessment Cell conducts ongoing security and threat assessments of DoD
    Components’ publicly accessible Web sites. The Joint Web Risk Assessment
    Cell is responsible for analyzing data for information that poses threats to ongoing
    DoD operations or personnel and that should not be released to the general public.
    From June 2001 through August 2001, the Joint Web Risk Assessment Cell
    identified 77 publicly accessible Web sites that contained inappropriate
    information. The types of information identified on the Web sites were
    operational plans, personal information, policies and procedures on military
    operations, and documents marked For Official Use Only.

               Types Of Inappropriate Information On Army Web Sites

                                                         Number of Web
               Types of Information                       Sites Affected
               Personal Information                             4
               For Official Use Only                          11
               Operational Plans                              14
               Policies and Procedures on
                Military Operations                           48
                 Total                                        77


                                         4
    DoD IG Web Site Reviews. We performed in-depth reviews of Web site
    administration at the Army Forces Command, the Army Training and Doctrine
    Command, and 11 subordinate organizations. Through the Internet, we identified
    Web sites under the control of both commands that contained information
    prohibited by Army Web policy. For example, Forces Command organizations
    that we reviewed had Web sites that identified birth dates, family information,
    personal e-mail addresses, new equipment fielded, exercise data, or inappropriate
    links to commercial sites. The Army Training and Doctrine Command
    organizations that we reviewed also had Web sites that contained birth dates,
    family information, or inappropriate language. We provided each organization
    reviewed with the inappropriate information and were told by the officials that it
    would be removed.

    The Army had publicly accessible Web sites that contained inappropriate
    information, which contravenes DoD Policy and Army Web policy and guidance
    and that should not be made available to the public. Web sites must be
    informative and contain only information that is appropriate for posting. The
    Army must prevent the disclosure of sensitive movements of military assets or
    personnel; locations of units, installations, or personnel; personal information
    protected under the Privacy Act; copyright information; trademarks and logos;
    and classified information on Army publicly accessible Web sites. In addition,
    information on Army Web sites must be accurate, timely, represent the official
    Army position, and must not have a negative effect on Army personnel and
    operational security.


Approval Process for Releasing Information
    Although the November 30, 1998, Army guidance for managing publicly
    accessible Web sites and Army Regulation 360-1 require that all information
    posted to a Web site should be reviewed for appropriateness by the security and
    the public affairs offices, the 2 major commands and 11 subordinate organizations
    that we visited had inconsistent approval processes for releasing and publishing
    information on Web sites. The Forces Command requires public affairs offices to
    control the content of Web sites, and the Training and Doctrine Command
    provides that public affairs offices and staff judge advocate offices, when
    requested, will review material prior to posting to publicly accessible Web sites.

    Army Forces Command. Forces Command policy, June 18, 2001, “World Wide
    Web Policy 25-01-2,” requires that the public affairs offices review and approve
    all information posted to the Forces Command and subordinate commands’ Web
    sites. The Office of Public Affairs is the approval authority for the release of
    information to the general public. The Office of Public Affairs and the
    Information Management Directorate reviewed and approved the release of
    information posted on the Forces Command Web site. The three subordinate
    organizations visited--the Reserve Command, the I Corps, and the Fifth Army--
    inconsistently followed the Forces Command’s policy.



                                        5
       Army Reserve Command. The Office of Public Affairs operated the
Reserve Command’s Web site and reviewed and approved information posted on
its Web site. One of the subordinate organizations, the 94th Regional Support
Command, maintained a Web site operated by its Office of Public Affairs.
However, the Office of Public Affairs did not review subordinate organizations’
Web sites unless the Web page was hosted on the 94th Web site or if the
organization requested a review. Another subordinate organization, the
70th Regional Support Command, stated that its Office of Public Affairs reviewed
and approved information posted to its Web site and for subordinate units’ Web
sites when the Web sites were first initiated, but it did not review and approve
subsequent information posted.

       I Corps. At I Corps, the Office of Public Affairs, the Office of the Staff
Judge Advocate, and the Directorate of Information Management reviewed and
approved information posted on the I Corps and subordinate units’ Web sites
when the Web sites were first initiated but did not review and approve subsequent
information posted.

        Fifth Army. The Fifth Army Office of Public Affairs is the approval
authority for the release of information and operates the Fifth Army Web site.
However, the Office of Public Affairs did not review and approve information on
subordinate units’ Web sites at initiation and did not review and approve updates
unless the Web page was hosted on the Fifth Army Web site.

Training and Doctrine Command. Training and Doctrine Command
Regulation 25-70, July 7, 2000, “Network Services,” provides that public affairs
offices and staff judge advocate offices, when requested, will review material
before it is posted to publicly accessible Web sites.

The Training and Doctrine Command Web site was reviewed and approved by the
public affairs office and the staff judge advocate office only when requested. The
Army Chaplain School obtained public affairs approval for all information posted
on its Web site. The Army Finance School, the Recruiting and Retention School,
and the Soldier Support Institute obtained public affairs review and approval for
major updates to their Web sites. The Adjutant General School did not obtain
approval because most changes were updates only. The Cadet Command Web
site was reviewed and approved by the public affairs office and the staff judge
advocate office only when requested.

The approval process for posting information on Web sites is necessary to ensure
that only properly cleared information is released to the general public on Army
Web sites. Although Web policy is the responsibility of the Director for
Information Systems for Command, Control, Communications, and Computers,
the release of information is the responsibility of the Chief of Public Affairs.
Accordingly, the Chief of Public Affairs, in coordination with the Director of
Information Systems for Command, Control, Communications, and Computers,
must establish an oversight mechanism to monitor whether Army organizations
are using consistent procedures for reviewing and approving all information
posted to Web sites.




                                    6
Periodic Policy Compliance and Annual Security Reviews
    The DoD Policy requires annual security reviews of Web sites, but the Army
    guidance for management of public Web sites requires periodic policy
    compliance reviews of Web sites to evaluate compliance. In addition, Army
    Regulation 530-1 requires Army organizations to develop an Operations Security
    Program to protect critical information, conduct an annual review of the
    Operations Security Program, and report the results to the Deputy Chief of Staff
    for Operations and Plans. However, the 2 major commands and
    11 subordinate organizations that we visited inconsistently performed security
    and policy compliance reviews.

    Army Forces Command. Officials at the Forces Command stated that they
    periodically performed policy compliance reviews of their Web site without
    documenting the results; however, they did not perform an annual security
    review. In addition, officials stated that they did not perform periodic policy
    compliance reviews or annual security reviews of subordinate command Web
    sites, including the Reserve Command, the I Corps, and the Fifth Army because
    that responsibility rests with each organization that operates an official Web site.

            Army Reserve Command. Officials at the Reserve Command
    periodically reviewed Reserve Command Web sites for compliance with policy
    and notified Web masters of needed correction. In August 2001, an operational
    security review performed on 90 Web sites showed that 20 percent of the Web
    sites were in violation. On July 5, 2001, an operational security review was
    performed on the Reserve Web site; however, officials stated that they did not
    perform annual security reviews of their subordinate units’ Web sites. Two
    subordinate organizations, the 70th and 94th Regional Support Commands, did
    not conduct periodic policy compliance reviews and annual security reviews of
    their Web sites or their subordinate units’ Web sites due to resource constraints.

            I Corps and Fifth Army Commands. The I Corps and the Fifth Army
    Commands did not conduct periodic policy compliance reviews and annual
    security reviews of their Web sites or their subordinate units’ Web sites because
    of resource constraints.

    Training and Doctrine Command. Officials at the Training and Doctrine
    Command and the subordinate Cadet Command did not conduct periodic policy
    compliance reviews and annual security reviews of their Web sites or subordinate
    organizations’ Web sites because of resource constraints. The Adjutant General
    School, the Army Finance School, and the Recruiting and Retention School also
    did not conduct periodic policy compliance reviews and annual security reviews
    of their Web sites because of resource constraints. The Soldier Support Institute
    stated that it performed periodic policy compliance reviews and quarterly
    operation security reviews but did not document the reviews. Only the Army
    Chaplain School performed documented annual security reviews in September
    1999, 2000, and 2001 using the Army Operational Security Checklist for Publicly
    Accessible Web sites. The checklist assists reviewers in assessing operational
    security vulnerabilities and determining whether Web policy is being properly
    implemented for their publicly accessible Web sites. The 1999 review performed


                                          7
    by the Office of Public Affairs and the Chaplain School Webmaster identified and
    corrected six instances where inappropriate information was posted or where
    required information, such as a Privacy statement, was missing from the Web site.
    The 2000 review identified no deficiencies. The 2001 review identified and
    corrected four instances of inappropriately posted information.

    Security Reviews after September 11, 2001. After the terrorist attacks on
    September 11, 2001, the Forces Command reviewed its Web site for operational
    security information and made necessary corrections. Officials stated that they
    also plan to review subordinate organizations’ Web sites for operational security
    information. The Chief, Army Reserve Command issued a memorandum dated
    September 20, 2001, that requires all subordinate units to perform an operational
    security review of their Web sites, make needed changes, and submit the sanitized
    Web site to the Reserve Command for final review and approval. The Reserve
    Command Web site was also reviewed for operational security after the attack.
    The Training and Doctrine Command Emergency Operations Center issued a
    tasking to review all public communications, including Web pages, to ensure that
    operational security information is not released in public forums.

    Major commands must evaluate each Web site under their control for compliance
    with Army policy and to protect operational security. Both periodic policy
    compliance reviews and annual security reviews are a necessary part of Web site
    administration to prevent information that could affect operational security from
    being posted on publicly accessible Army Web sites. Army Web Administration
    policy requires periodic policy compliance reviews but does not require annual
    security reviews of Web sites. Also, Army Policy does not require the results to
    be written or a followup system to resolve identified potential inappropriate
    postings.

    The Director for Information Systems for Command, Control, Communications,
    and Computers must revise the Army Web administration guidance to require
    documented periodic policy compliance reviews of publicly accessible Web sites
    and a followup system to resolve discrepancies concerning operational and other
    issues identified during the reviews. The Deputy Chief of Staff for Operations
    and Plans must ensure that major commands’ operational security personnel
    perform independent, annual operational security reviews of Web sites as part of
    the Operational Security Program and annual Operational Security Report.


Training of Web Administration Personnel
    Web Administration Training. Army Regulation 25-1 requires that the
    Training and Doctrine Command formulate information management and
    information technology doctrine for the Army, and in coordination with the
    Director of Information Systems for Command, Control, Communications, and
    Computers identify and analyze information management training requirements,
    and update existing courseware. The Training and Doctrine Command officials
    indicated that they had not developed training requirements and course material
    for Web administration personnel.



                                        8
            Forces Command. The Forces Command did not have a training
    requirement and did not provide Web administration personnel with training on
    Web site administration. However, the Forces Command Web page did provide
    guidance on Web site issues, including Web procedures. The Army Reserve
    Command, the Fifth Army and the 94th Reserve Support Command did not offer
    policy training to their Web administrators. The 70th Reserve Support Command
    developed a training course on Web site policy that included Web Administrator
    responsibilities and publishing guidelines. The I Corps developed a Web
    Administrator policy course that included responsibilities of Web administration
    personnel and identified types of prohibited information. The
    I Corps also provided links to Web policy and guidance at its Web site.

            Training and Doctrine Command. The Training and Doctrine
    Command did not provide its organizations with training on Web administration;
    however, it did provide access to DoD, Army, and Training and Doctrine
    Command Web policies. Web administrators must receive training in Web site
    administration policy so that Web administration personnel are cognizant of
    guidance and requirements for Web site administration. Trained personnel
    provide an additional assurance that information on publicly accessible Web sites
    is appropriate for public viewing.

    Air Force Lessons Learned. Our review of the Air Force Web administration
    identified that the Air Force Communications Agency was developing a
    computer-based training course for Web masters and other Web administration
    personnel. The course includes a 4-hour session with a 1-hour review, followed
    by questions that must be answered with a 70-percent correct score for successful
    completion of the course. Instruction topics include Web administration, roles of
    personnel, the Web server, system security, Web site establishment, page design,
    and the collection of information. The training will enable participants to perform
    essential Internet administration tasks and manage the enterprise in a secure
    manner.

    The Director of Information Systems for Command, Control, Communications,
    and Computers must coordinate with the Training and Doctrine Command to
    establish an Army Web administration training requirement and curriculum. All
    personnel should complete the training before being assigned Web duties. The
    Director for Information Systems for Command, Control, Communications, and
    Computers should request the Training and Doctrine Command use the already
    developed Air Force training as a starting point for an Army training and
    education program in Web administration.


Army Web Site Inventory
    The number of publicly accessible Army Web sites is unknown. Army policy
    requires registration of publicly accessible Web sites in the GILS and with the
    Army Home Page. Listings of Army Web sites accessible to the general public as
    shown on the Army Home Page were different than those registered in GILS. As
    of December 11, 2001, 459 Army Web sites were listed on the Army Home Page.



                                         9
    The GILS contained 374 Army listings. Only 43 were listed at both sites with the
    remainder listed either in GILS (331) or on the Army Home Page (416).

    Although Web sites are required to be registered in both the Army Home Page
    and GILS, there is no requirement for both listings to be identical and up-to-date.
    Annually, major commands should correct the information in both listings and
    report discrepancies. Command oversight and identical registration will ensure
    that Army officials have a listing of all publicly accessible Web sites so that when
    changes to policy occur, the changes can be disseminated to Web officials; when
    training requirements are established, training can be planned and taken; and
    when commands perform periodic policy and annual security reviews, they will
    be able to analyze all publicly accessible sites. The Director for Information
    Systems for Command, Control, Communications, and Computers should revise
    Army Web Administration policy to require periodic reviews to reconcile Web
    site registration between the Army Home Page and GILS.


Monitoring Army Web Sites
    The Army had not established a Web Risk Assessment Cell. Both the Air Force
    and the Navy have Web Risk Assessment Cells operated by reservists, which
    supplement the Joint Web Risk Assessment Cell. The Army Web Risk
    Assessment Cell could be responsible for vulnerability analyses and threat
    assessments of the content on Army Web sites. In addition, the Web Risk
    Assessment Cell could analyze content and data of Army Web sites, and review
    cross-sectional Web information, trend analysis, and aggregate data that could
    pose a threat to ongoing operations or personnel. Also, the Web Risk Assessment
    Cell could review Army Web sites for compliance with Army instructions,
    recognize and report vulnerabilities at one or more Web sites, and notify officials
    of the results. The Director for Information Systems for Command, Control,
    Communications, and Computers should establish a separate Web Risk
    Assessment Cell to facilitate reviews of Web sites for potential inappropriate
    information.


Summary
    The GILS was established to help citizens identify, locate, and retrieve
    information about the Government. Web sites must be informative and contain
    only information appropriate for posting. To achieve this, managers who are
    responsible for Web administration, including posting information on Web sites,
    must be aware of the policy and process for establishing and revising Web sites,
    and appropriate Web page content. Information must be approved for public
    release. Training in Web site administration is a first step to safeguarding
    sensitive information along with establishing an oversight Web Risk Assessment
    Cell. In addition, performing periodic policy compliance reviews and annual
    security reviews of Web sites is imperative so that only appropriate information is
    posted. Further, a listing of Web administrators and Web sites that are
    consistently reported in DoD and Army databases will help facilitate the


                                         10
           distribution of new policy, assist in the oversight of known public Web sites, and
           ensure training of appropriate officials. All of those steps will help prevent the
           disclosure of sensitive movements of military assets or personnel; locations of
           units, installations, or personnel; personal information protected under the Privacy
           Act; copyright information; trademarks and logos; and classified information on
           Army publicly accessible Web sites.


Management Actions in Response to the Report
           The Director of Enterprise Integration, Office of the Director of Information
           Systems for Command, Control, Communications, and Computers1 provided the
           Army response. She stated that the Army has made progress in resolving many of
           the findings and recommendations that we identified in our report. Web content
           violations are being alleviated through the Army’s strategy to improve business
           practices. Specifically, the Army has established the Army worldwide Intranet
           and single portal for the Army to conduct its business operations. Army
           organizations are moving their business information and applications to the
           security of the Army Intranet and removing the data from public Web pages. The
           Army also plans to consolidate all the Army servers including those of the
           National Guard and the Reserve. Control of the servers will be through three
           regional centers under the direct control of the Chief Information Officer, G-6.
           Additionally, Web policy was promulgated, formal management controls were
           developed, and an Army Web Risk Assessment Cell was created to strengthen
           Army Web site administration.




1
    The Director of Information Systems is now called the Chief Information Officer, G-6.



                                                      11
Recommendations, Management Comments and Audit
  Response
    1. We recommend that the Director for Information Systems for Command,
    Control, Communications, and Computers:

            a. Revise policy to require major commands to document periodic
    policy compliance reviews of publicly accessible Web sites, report results to
    the Director for Information Systems for Command, Control,
    Communications and Computers, and establish a followup system to resolve
    discrepancies identified.

    Management Comments. The Director of Enterprise Integration partially
    concurred with the recommendation. The Director stated that the Army recently
    revised AR 25-1 “Army Information Management,” to require Army
    organizations to designate a reviewer to clear information that is posted to the
    World Wide Web site. The reviewer is required to conduct routine reviews of
    Web sites on a quarterly basis to ensure compliance with DoD and Army policy.
    At a minimum, the review will include all of the Web site management control
    checklist items contained in Appendix B-4 of the AR 25-1 (see the Management
    Comments section). The revisions are awaiting the approval of the Secretary of
    the Army. Further, due to resource constraints, the Director did not concur with
    requiring major commands to report results of the periodic reviews to the Chief
    Information Officer. Instead, she stated that the requirement of report
    submissions through the chain of command from organizations that have been
    notified of specific violations on their Web sites would be supported, and the
    requirement of ad hoc reporting to the Chief Information Officer,G-6 on the
    violations that have been identified would be continued.

    Audit Response. Although the Director nonconcurred with part of the
    recommendation, planned actions meet the intent of the recommendation.

            b. Coordinate with the Training and Doctrine Command to establish
    a training requirement and curriculum for Army Web administrators and
    require that Web administration personnel be trained before being assigned
    Web duties.

    Management Comments. The Director concurred with the recommendation and
    is coordinating with the Training and Doctrine Command and the Army Signal
    Center and School to determine the training requirement for Web site
    administration personnel.

    c. Revise policy to require the reconciliation and verification of data
    contained on the Army Home Page with data contained in the Government
    Information Locator Service as part of the periodic review.

    Management Comments. The Director concurred with the recommendation.
    The Army Web Risk Assessment Cell is performing a reconciliation to ensure


                                       12
that every Army Web site has been properly registered in the Government
Information Locator Service. Once the reconciliation is complete, the Army Web
Risk Assessment Cell will conduct spot-checks to ensure registration in the
Government Information Locator Service.

       d. Establish an Army Web Risk Assessment Cell.

Management Comments. The Director concurred with the recommendation.
On February 26, 2002, the Army established a Web Risk Assessment Cell to
conduct routine reviews of Army Web sites for compliance with DoD and Army
policies, conduct random reviews of Army Web sites, notify components of
security concerns, ensure corrective action, and report corrective action results.

2. We recommend that the Deputy Chief of Staff for Operations and Plans
require major commands’ operational security personnel perform
independent annual operational security reviews of Web sites as part of their
Operational Security Program and annual Operational Security Report.

Management Comments. The Deputy Chief of Staff for Operations and Plans,
now the Deputy Chief of Staff, G-3 concurred with the recommendation. The
Deputy Chief of Staff will direct all major commands to add an annual review of
their publicly accessible Web sites for operational security and address the results
in their annual operational security reports.

3. We recommend that the Chief of Public Affairs, in coordination with the
Director of Information Systems for Command, Control, Communications,
and Computers, establish an oversight mechanism to monitor whether Army
organizations are using consistent procedures for reviewing and approving
all information posted to Web sites.

Management Comments. The Director concurred with the recommendation.
She and the Public Affairs Officer will use performance measures established by
the Army Web Risk Assessment Cell for assessing improvements in the security
and compliance of the Army’s Web sites.




                                     13
Appendix A. Audit Process

Scope
    Work Performed. We visited the Forces Command and the Training and
    Doctrine Command. We selected the Forces Command because it included the
    majority of Army units. We selected the Training and Doctrine Command
    because it was responsible for information technology training. The subordinate
    Components visited included the Reserve Command, the I Corps, Fifth Army,
    70th Regional Support Command, 94th Regional Support Command, Cadet
    Command, Adjutant General School, Army Chaplain School, Army Finance
    School, the Recruiting and Retention School, and Soldier Support Institute. The
    results of our review of 2 major commands and 11 subordinate Components do
    not reflect a projection to all Army major commands and subordinate
    Components. We reviewed and evaluated Army Web site policies for publicly
    accessible Web sites. We conducted discussions with officials to evaluate
    whether policies and practices were adequate. We reviewed records and
    documents dated from November 1998 through December 2001.


Methodology
    Use of Computer-Processed Data. We relied on computer-processed data
    without performing tests of system general and application controls to confirm the
    reliability of the database. However, not establishing the reliability of the
    database will not affect the results of our audit. We relied on judgmental
    sampling procedures to develop conclusions on the audit.

    Audit Dates and Standards. We performed this audit from May 2001 through
    January 2002 in accordance with generally accepted government auditing
    standards.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.


Management Control Program Review
    DoD Directive 5010.38, “ Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Controls (MC) Program
    Procedures,” August 28, 1996, require DoD managers to implement a
    comprehensive system of management controls that provide reasonable assurance
    that programs are operating as intended and to evaluate the adequacy of the
    controls.



                                        14
    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of Army management controls over DoD and Army policies and
    practices for Web site administration and oversight. In assessing those controls,
    we evaluated policies and practices on how Government or other servers host
    official Army Web sites, how the Army registers and monitors Web sites for
    compliance with policy, and how the Army safeguards sensitive information. We
    reviewed management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. We identified material management
    control weaknesses for the Army as defined by DoD Instruction 5010.40.
    Army management controls for oversight of Army Web sites were not adequate to
    identify a complete listing of Web sites, conduct annual multi-disciplinary
    reviews, and establish a followup system to track inappropriate information
    posted. The recommendations, if implemented, will improve the oversight
    process and the Web site administration process. A copy of the report will be
    provided to the senior official responsible for management controls in the Office
    of the Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence).

    Adequacy of Management’s Self-Evaluation. The Director for Information
    Systems for Command, Control, Communications, and Computers did not
    identify oversight of Army Web sites as an assessable unit and therefore did not
    identify or report the material management control weakness identified by the
    audit.


Prior Audit Coverage
    During the last 5 years, the GAO and the Inspector General of the Department of
    Defense both issued two reports on the issue of Internet privacy.

    General Accounting Office
    GAO Report No. GAO-01-147R “Internet Privacy: Federal Agency Use of
    Cookies,” October 20, 2000

    GAO Report No. GAO/AIMD-00-296R, “Federal Agencies’ Fair Information
    Practices,” September 11, 2000

    Inspector General of the Department of Defense (IG DoD)

    IG DoD Report No. D2001-130 “DoD Internet Practices and Policies,”
    May 31, 2001

    IG DoD Report No. D2002-062 “Air Force Web site Administration, Policies,
    and Practices,” March 13, 2002




                                        15
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)

Department of the Army
Commanding General, Forces Command, Department of the Army
Commanding General, Training and Doctrine Command, Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Director of Information Systems for Command, Control, Communications, and
   Computers, Department of the Army
Deputy Chief of Staff for Operations and Plans, Department of the Army
Chief of Public Affairs, Department of the Army
Auditor General, Department of the Army

Other Defense Organization
Director, Defense Information Systems Agency

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
   Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International Relations,
  Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform

                                          16
Department of Army Comments




                   17
18
19
20
21
22
23
       Audit Team Members
The Acquisition Management Directorate of the Office of the Assistant Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of the Office
of the Inspector General of the Department of Defense who contributed to the report are
listed below.

       Mary L. Ugone
       Bruce A. Burton
       Thomas S. Bartoszek
       Lisa E. Novis
       Thomas J. Hilliard
       Thelma E. Jackson
       Carrie J. Gravely
       Mandi L. Markwart
       Patrice A. Cousins
       Constance E. Halahan
       Jacqueline N. Pugh
       Jenshel D. Marshall
